 

No. 19-825
In the Supreme Court of the United States

Federal Trade Commission,
Petitioner,

v.

Credit Bureau Center, LLC and Michael Brown,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief for the States of
Illinois et al. as Amici Curiae in Support of Petitioner contains 3,648 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 30, 2020.

 

12th Floor

Chicago, Illinois 60601

(312) 814-5376
jnotz@atg.state.il.us

Counsel for the State of Illinois

 
